Audit of the Inter-American Foundation’s
Financial Statements, Internal Controls, and
Compliance for the Fiscal Year Ended
September 30, 2002
Audit Report No. 0-IAF-03-002-C
January 29, 2003




                   Washington, D.C.

This page intentionally left blank.
January 29, 2003


MEMORANDUM

FOR:           Inter-American Foundation President,
               David Valenzuela

FROM:          IG/A/FA, Alvin A. Brown /s/

SUBJECT: Audit of the Inter-American Foundation’s Financial
Statements, Internal Controls, and Compliance for the Fiscal Year Ended
September 30, 2002 (Report No. 0-IAF-03-002-C)

We contracted with the independent certified public accounting firm of
Gardiner, Kamya & Associates, P.C. (GKA) to audit the financial statements
of the Inter-American Foundation as of September 30, 2002 and for the year
then ended. The contract required that the audit be done in accordance with
generally accepted government auditing standards; Office of Management
and Budget’s (OMB) Bulletin, Audit Requirements for Federal Financial
Statements; and the General Accounting Office/President’s Council on
Integrity and Efficiency Financial Audit Manual.

In its audit of the Inter-American Foundation (IAF), Gardiner, Kamya &
Associates found

• the financial statements were fairly presented, in all material respects, in
   conformity with U.S. generally accepted accounting principles,

• IAF had effective internal control over financial reporting (including
  safeguarding assets) and compliance with laws and regulations,

• IAF’s financial management systems substantially complied with the
  requirements of the Federal Financial Management Improvement Act of
  1996 (FFMIA), and

• no reportable noncompliance with laws and regulations it tested.



                                                                           1
In connection with the contract, we reviewed GKA’s report and related
documentation and inquired of its representatives. Our review, as
differentiated from an audit in accordance with U.S. generally accepted
government auditing standards, was not intended to enable us to express,
and we do not express, opinions on IAF’s financial statements or internal
control or on whether IAF’s financial management systems substantially
complied with FFMIA; or conclusions on compliance with laws and
regulations. GKA is responsible for the attached auditor's report dated
January 3, 2003 and the conclusions expressed in the report. However, our
review disclosed no instances where GKA did not comply, in all material
respects, with generally accepted government auditing standards.

The report does not contain recommendations for your comment and IAF
management did not comment on the report.

The OIG appreciates the cooperation and courtesies extended to our staff
and to the staff of GKA during the audit. If you have questions
concerning this report, please contact Andrew Katsaros at
(202) 712-4902.




                                                                     2
INTER-AMERICAN FOUNDATION 

           (IAF)





         FINANCIAL STATEMENTS 

        SEPTEMBER 30, 2002 and 2001


                   and 


 INDEPENDENT AUDITOR’S REPORT THEREON 





                                          3
                             INTER-AMERICAN FOUNDATION (IAF)


TABLE OF CONTENTS



                                                                                                                 Page No.


Management’s Discussion and Analysis (Overview) ....................................................... 6 


Independent Auditor's Report on Financial Statements.................................................. 13 


Balance Sheets………………………………………………………………………….15                                                                                         


Statements of Net Cost.................................................................................................... 16 


Statements of Changes in Net Position........................................................................... 17 


Statements of Budgetary Resources................................................................................ 18 


Statements of Financing………………………………………………………………...20 


Notes to Financial Statements………………………………………………………….21 


Independent Auditor's Report on Internal Control ......................................................... 31 


Independent Auditor's Report on Compliance with Laws and Regulations ................... 33 


Management Letter - Status of Prior Year Findings...................................................... 35 





                                                                                                                                  4
                                     Inter-
                                     Inter-American
                                            American Foundation




Message from the President

In Fiscal Year 2002 the IAF gained recognition for both the organizational changes it has made
and its continuing status as the most innovative, effective and economical U.S. government
development agency. The Senate Foreign Operations Subcommittee of the Committee on
Appropriations commended IAF management for its accomplishments. The Inspector General of
the U.S. Agency for International Development praised the IAF’s program management and
evaluation functions. When coupled with the Inspector General’s report earlier in the year on the
IAF’s flawless financial management performance, the IAF’s leaps forward are evident.

Over the year the IAF was asked to participate in the Partnership for Prosperity, a joint initiative
of the governments of the U.S. and Mexico. The IAF was also appointed head of the mission of
the U.S. delegation to a special Organization of American States session on decentralization and
selected as co-sponsor of a major conference on corporate social responsibility held to carry out
objectives undertaken at the Summit of the Americas.

The IAF provided counsel to the senior National Security Council staff on the structuring of the
President’s new Millennium Challenge Account. The Assistant Secretary of State called upon the
IAF to help reduce poverty in rural Central America in connection with the upcoming Free Trade
Agreement of the Americas. Perhaps most dramatic is the number of invitations extended to IAF
program and management staff to speak on the implications of remittances and
transnationalism—the newest development area.

I am pleased to introduce the IAF’s Fiscal Year 2002 financial statements, which reflect this
mobilization and recognition of IAF capabilities. The improvements and efficiencies made
possible by actions taken during Fiscal Years 2000, 2001 and 2002, including staff reductions,
outsourcing of administrative functions, and increased interaction with the development and
foreign policy community, have provided a solid basis for the achievements that follow. We
expect continuing improvement in IAF policy, management, operations and contribution to the
development effort.




                                                                                                5
             MANAGEMENT DISCUSSION AND ANALYSIS 


The Inter-American Foundation (IAF) is a resourceful, agile, cost-effective agency efficient in its
operations, and is innovative and effective in its grassroots and local development programs. The
IAF learns from its experience, and uses the lessons learned to improve its own grantmaking
decisions and to advance the knowledge and success of development practitioners, donors and
policy makers.


Mission and Organizational Requirements

Congress created the IAF in 1969 to carry out the following mission on behalf of the American
people:

       Strengthen the bonds of friendship and understanding among the peoples of this
              hemisphere;

       Support self-help efforts designed to enlarge the opportunities for individual development;

       Stimulate and assist effective and ever-wider participation of the people in the
              development process;

       Encourage the establishment and growth of democratic institutions, private and
             governmental, appropriate to the requirements of the individual sovereign nations
             of this hemisphere.

The IAF strategic plan for 2003-2007 and the Fiscal Year 2004 presentation to the Office of
Management and Budget were based on four main institutional goals derived from this statutory
basis, 30 years of experience and the current context:

       Support the most promising and innovative means to foster sustainable grassroots and
             local development and economic independence.

       Foster communication, learning and reflective practice.

       Make the most of available resources (efficiency, counterpart).

       Be the preeminent organization in the areas of grassroots development and 

              participatory democracy in Latin America and the Caribbean. 


Central to the IAF's approach to development is its posture of responsiveness. IAF neither
designs nor implements projects. Rather, it responds with attentiveness, analysis, and, when
approved, grant funds for development ideas and projects designed by community level
organizations and local non-governmental organizations in Latin America and the Caribbean.


                                                                                               6
Listening to and supporting the best development ideas coming from the grassroots is the most
important way in which IAF achieves all four of the goals assigned to it in the original legislation.

The IAF seeks to reflect the values it fosters. In both the programs it supports and its internal
processes, the following principles are essential: innovation, partnership, self-sufficiency,
democratic practices and social responsibility.

The IAF carries out its work based on three main instruments: grant-making, results
measurement and dissemination, and learning activities.

                       Performance Goals, Objectives, and Results
Grants promote the formation of partnerships among grassroots and private organizations, local
governments and businesses to define and resolve issues of local concern that help reduce poverty
and improve the quality of life of people. The IAF also helps to build the institutional capacity of
grassroots organizations to address the social and economic needs of their members.

The IAF’s Grassroots Development Framework provides each grantee with a means of setting
goals to be achieved in the development project and provides a balanced mechanism for
reporting results. This information is aggregated to permit broader analysis.

The networking of persons and the building of linkages help small producers gain access to
markets and forge partnerships for mutual benefit. Both local and international businesses are
critically important stakeholders in their respective communities and should play an active role
for the betterment of the community. In this respect, the IAF continues to seek out a broad range
of relationships with corporations and other businesses to bring their resources and ideas to bear
on the solutions to local problems.

The strengthening of democracy, in addition to building strong national institutions that can
guarantee the rule of law, also requires engaged and active citizens at the local level. The IAF is
making a far-reaching contribution to forging more democratic, just, and less impoverished
countries in Latin America and the Caribbean through its work at the grassroots level.

Illustrative Projects Funded in Fiscal Year 2002
In Fiscal Year 2002, the IAF made grants to eight non-governmental organizations (NGOs) in
Mexico to support groundbreaking partnerships they initiated with businesses to produce
significant, practical improvements in low-income communities. These NGOs are forging
relationships with enterprises eager to put into practice contemporary notions of corporate social
responsibility and participatory development. Private sector involvement ranges from cash
donations to mobilizing local support, providing volunteers, offering expertise and participating in
NGO leadership. The alliances take several forms:

•   Partnering with Mexican Businesses
    Through its partnership with BIMBO, Mexico’s largest bakery corporation, FinComún,
    Servicios Financieros Comunitarios will expand its micro-enterprise loan program in Mexico
    City. BIMBO representatives will personally introduce FinComún credit advisors to
    BIMBO’s low-income clients who might benefit from micro-finance and credit services. An

                                                                                                7
   alliance with two local businesses, Cementos Chihuahua and Supermercados Smart, will
   allow Fundación Habitat y Vivienda (FUNHAVI) to increase its home improvement loans to
   low-income families in Ciudad Juárez, across the border from El Paso, Texas. Cementos
   Chihuahua supports FUNHAVI’s publicity campaigns and sells the new loan recipients
   construction materials at discounted prices. All loan repayments are deposited at local outlets
   of Supermercados Smart, a grocery chain, which donates accounting services.

• 	 Enlisting Business Leaders
    ProNatura Chiapas and Alternare have invited successful businesspeople to serve on their
    boards of directors and in advisory capacities. These business leaders provide financial and
    marketing expertise, promote further cooperation with the private sector, and assist in raising
    funds.

• 	 Mobilizing Resources for Community Foundations
    Businesses and philanthropic leaders will mobilize financial resources and volunteers for the
    grant-making operations of Fundación Comunitaria de la Frontera Norte in Ciudad Juárez;
    Fundación del Empresariado Sonorense, a statewide foundation whose membership consists
    of 6,000 business leaders in Ciudad Obregón, Hermosillo and Nogales in Sonora, which
    shares a border with Arizona; and 10 community foundations across Mexico supported by
    Centro Mexicano para la Filantropia.

• 	 Tapping a Corporate Spectrum
    Niños y Crías will promote natural resource conservation in 11 protected areas through
    community-based education campaigns initially supported with resources from Banco
    Nacional de Mexico, Hewlett Packard-Mexico, the David and Lucile Packard Foundation,
    Patagonia, Inc., and Aveda Corporation, among other Mexican and U.S. businesses. More
    corporations are expected to donate in the future. Additionally, committees representing each
    protected area will raise cash or in-kind contributions from local businesses, including
    production of community outreach materials and air time on television and radio stations.

    Grants Funded in Fiscal Year 2002

    In Fiscal Year 2002 the IAF funded $7,899,656 in grants of appropriated funds and
    $5,478,275 in grants of Social Progress Trust Funds, for a grand total of $13,377,931. The
    grants (both new and supplemental) are divided among primary program areas as follows:

    Business Development/Management           34 grants for a total of $7,191,000 

    Food Production/Agriculture               14 grants for a total of $2,483,000 

    Education/Training                        18 grants for a total of $2,304,000 

    Community Services                         4 grants for a total of $ 920,000 

    Research & Dissemination                   4 grants for a total of $ 480,000 


    Grants were divided geographically among Argentina, Brazil, the Dominican Republic,
    Ecuador, El Salvador, Guatemala, Haiti, Honduras, Latin America (regional), Mexico,
    Nicaragua, Perú, and Venezuela.




                                                                                               8
NOTE: Only supplemental grants were funded in Argentina and Venezuela; there were no
new grants awarded in these two countries. There were neither new grants nor
supplemental grants in Bolivia, Costa Rica or Panamá.

Evaluation and Dissemination

The IAF is committed to sharing the experiences and learning of grantees. By
tracking results and studying organizations, the IAF is able to gain insight into
what works in the development process. The Evaluation Unit is housed in the Office
of Operations to provide independence from the Office of Programs and to allow
for close interaction with the staff responsible for IAF’s Grant Evaluation and
Management System (GEMS) database. The Evaluation Unit continues to focus on
perfecting the Grassroots Development Framework (GDF), incorporating grant
results into GEMS, developing a new capacity to utilize GEMS for studies and
comparative analysis, and implementing a rigorous schedule of grant evaluations.
The Evaluation Unit also participates with other Foundation offices in special
learning activities, conferences, and dissemination activities.
The IAF also supports training and other programs, such as exchanges among grantees, to
increase their ability to learn from each other. The sharing of knowledge among those similarly
situated is a powerful force in development. Moreover, many former IAF fellows and other
trainees are now in positions of national and international authority.




                                                                                            9
                                         Fiscal Year 2002 


                Analysis of Financial Statements and Stewardship Information 

                          Systems, Controls, and Legal Compliance 


During Fiscal Year 2002, the shift initiated during Fiscal Year 2000 toward a more externally
oriented, programmatically focused organization was fully realized. Management’s overarching
concerns for Fiscal Year 2000 were:               reorganizing operations functions, improving
communication between budgetary and accounting personnel, initiating new programmatic
vehicles and representing the IAF in significant international and domestic fora.

Reorganizing Operations Functions

Having outsourced procurement, contracting, accounting, certification, disbursement, and travel
management functions to the U.S. Department of the Treasury, Bureau of Public Debt (“BPD”)
during Fiscal Year 2000, the IAF completed the outsourcing process by franchising personnel to
the U.S. Department of the Interior (which had been handling payroll for some time) during Fiscal
Year 2001 and both budget and Equal Employment Opportunity functions to BPD during Fiscal
Year 2002.

Given the range of functions being performed for the IAF by other U.S. Government agencies,
management revisited the IAF organizational structure and modified it to consolidate oversight of
interagency relationships in a single operations office under an experienced vice president.

The Senate Appropriations Subcommittee on Foreign Operations commended the IAF’s
management improvements in its report on the Fiscal Year 2003 appropriations.

Budgetary and Accounting Functions

The IAF expects that the final step of franchising budgetary operations to the same provider that
performs accounting services and consolidating operations functions in one office with executive
supervision marks the final step in overhauling the way the IAF does business. The U.S. Office
of Management and Budget has expressed strong support for the institutional improvements the
IAF has made.

New Programmatic Vehicles

The Foundation began launching two groundbreaking corporate and investment-oriented
initiatives in Fiscal Year 2002. First, the Foundation has formed a network with the leading
corporate foundations in Latin America and the Caribbean. It is devoted to streamlining
operations, harmonizing results reporting and improving information-sharing. The IAF expects
the network to become an ideal vehicle for businesses to contribute to communities, a standard-
bearer in operational capacity and a key source of information worldwide.

The IAF is testing the feasibility of channeling capital to grassroots and local organizations that
need assistance bridging the gap between grant financing and longer-term commercial financing
or equity investment. The Foundation may provide grants for technical assistance and risk
mitigation. It will help community-owned organizations form legal entities and attract investors.

                                                                                              10
Possible partners include U.S. foundations, socially oriented mutual funds, international
organizations, individuals, U.S. and local businesses and other governments.

The IAF continues to support enterprise and entrepreneurship in an ever-changing global
environment. The U.S. Embassy in El Salvador recently expressed strong support for Foundation
grants to agriculture projects with business components, because they provide livelihoods for
farmers who could be eclipsed under the free trade agreement the United States is promoting in
the region.

Representing the IAF

Throughout Latin America and the Caribbean, development practitioners, politicians, policy
makers, academics, donors, and civil society organizations know, respect, and emulate the IAF
and its work. Yet in the United States few are aware of the IAF, its purpose, and its value.

During Fiscal Year 2001 the IAF began to raise its profile; many of the seeds it planted came to
fruition in 2002. Not only did the IAF sponsor conferences; IAF management and staff delivered
addresses and participated substantively in a number of fora. For example, the IAF President was
selected to participate in the high level U.S. Government – Government of Mexico Partnership for
Prosperity; the National Security Council has conferred with IAF executive management and its
Board on a range of topics; and the IAF has conceptualized and helped to organize several
significant conferences on topics such as corporate social responsibility and transnationalism.

Fiscal Year 2002 was notable for the IAF in that Congress praised its management and raised its
funding. The IAF is expanding efforts to inform Congress, fostering understanding of the IAF
approach and building support for a solid base of funding.

The IAF also invited, and was pleased to receive the acceptances of, an impressive new group of
IAF Advisory Council members. This talented group will enhance greatly the IAF’s capacity to
fulfill its mission.

                                 Net Cost of Core Functions
The activity reported in the Statement of Net Cost reflects the resources used by the IAF during
the year. Program costs of $23,057,518 reflected a 9 percent increase from Fiscal Year 2001, an
increase of $1,831,317 in resources used.

Fiscal Year 2002 noted $21,867,409 in Obligations Incurred. Personnel and benefits increased
from $3,386,719 in Fiscal Year 2001 to $3,875,003 in Fiscal Year 2002, reflecting the
replacement of key personnel lost during the past three fiscal years. This reflects an increase of
almost 14 percent, a difference of $488,284. The chart below shows the net costs incurred for
the IAF Core Functions in Fiscal Year 2002. As reflected in the chart below, 75 percent of the
total operating costs were for programmatic activities.




                                                                                              11
                                            Net Cost of IAF Core Functions


                                                                             �����������������������������           Personnel




                                                 �� �� �� �� �� �� �� �� ��� ��� ��� ��� ��� ��� ��� ��� ��� ��� ��� ��� ��� ��� ��� ��� ��� ��� ��� ��� ��� ��� ��� ��� ��� ��� ��� ��� ��� � � � � � � � � � � �
                                            Operating Services                                                       17%
                                                                                                                                                                       Rent
                                            3%                                                                                                                         2%


                                    Other




                                                  �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� ��
                                    3%




                                                   ������������������������������������������������
         Other Program Activities
         9%
                                                   � � � � � �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� ��
                                                                  �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� ��
                                                                   �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� �� ��
                                                                    �������������������������������������������                                                                    Grants
                                                                                                                                                                                   66%




                                                                Fund Balance with U.S. Treasury

Total resources available from the U.S. Treasury for Fiscal Years 2002 and 2001 were
$28,716,567 and $39,644,906, respectively. The difference of $10,928,339 reflects an increased
spending level in FY 2002 and a cancellation of $1.4 million of Fiscal Years 96/97
appropriations. The Social Progress Trust Fund (SPTF) agreement was amended during Fiscal
Year 2002 to provide all remaining funds until they are exhausted--in approximately 15 years.
See Note One in the Financial Statements for funding source information and Note Seven for the
end of year net position.

                                                  Limitations on Financial Statements

These financial statements have been prepared to report the financial position and results of
operations of the entity, pursuant to the requirements of 31 U.S.C. 3513. While the statements
have been prepared from the books and records of the entity in accordance with the formats
prescribed by the Office of Management and Budget, the statements are in addition to the
financial reports used to monitor and control budgetary resources which are prepared from the
same books and records.




                                                                                                                                                                                                                     12
                    Independent Auditor's Report on Financial Statements


Office of the Inspector General
U.S. Agency for International Development
Washington, D.C.


We have audited the accompanying Balance Sheet of the Inter-American Foundation (IAF), a
U.S. Government Corporation, as of September 30, 2002 and 2001, and the related Statements of
Net Cost, Changes in Net Position, Budgetary Resources and Financing for the years then ended.
These financial statements are the responsibility of the management of the IAF. Our
responsibility is to express an opinion on these financial statements based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and the Office of Management
and Budget Bulletin No. 01-02, Audit Requirements for Federal Financial Statements. Those
standards require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement. An audit includes examining, on a test
basis, evidence supporting the amounts and disclosures in the financial statements. An audit also
includes assessing the accounting principles used and significant estimates made by management,
as well as evaluating the overall financial statement presentation. We believe that our audit
provides a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects,
the financial position of the IAF as of September 30, 2002 and 2001, and its net costs, changes in
net position, budgetary resources, and the reconciliation of budgetary obligations to net cost for
the years then ended in conformity with generally accepted accounting principles.

Our audits were conducted for the purpose of forming an opinion on the financial statements
referred to in the first paragraph of this report as a whole. The information presented in IAF
Management’s Discussion and Analysis (Overview) section is not a required part of the financial
statements but is supplementary information required by OMB Bulletin No. 01-09, Form and
Content of Agency Financial Statements. Although we have read the information presented, such
information has not been subjected to the auditing procedures applied in the audits of the
financial statements and, accordingly, we express no opinion on it.




                                                                                             13
In accordance with Government Auditing Standards, we have also issued reports dated January
3, 2003 on our consideration of the IAF's internal control over financial reporting, and on our
tests of its compliance with certain provisions of applicable laws and regulations. These reports
are an integral part of an audit performed in accordance with Government Auditing Standards,
and, in considering the results of the audit, these reports should be read in conjunction with this
report.


/s/

Gardiner, Kamya & Associates


January 3, 2003




                                                                                            14
                             INTER-AMERICAN FOUNDATION
                                        Balance Sheet
                              As of September 30, 2002 and 2001

                                                      2002              2001
ASSETS:
Intragovernmental:
 Fund Balance With Treasury (Note 2)              $   28,716,567   $   39,644,906
 Total Intragovernmental                              28,716,567       39,644,906

 Accounts Receivable                                       1,084           77,278
 Advances and Prepayments (Note 3)                     4,809,249        3,247,441
 General Property, Plant and Equipment (Note 4)           21,554           84,722

Total Assets                                      $   33,548,454   $   43,054,347

LIABILITIES
Intragovernmental
 Accounts Payable                                 $         127    $      65,487
 Other                                                   49,785           98,849
 Total Intragovernmental                                 49,912          164,336

 Accounts Payable                                       358,857          228,168
 Other                                                  770,451          447,548

Total Liabilities (Note 5)                             1,179,220         840,052

Commitments and Contingencies (Note 6)                         ­                ­

NET POSITION
Unexpended Appropriations (Note 7)                    31,191,649       42,323,583
Cumulative Results of Operations (Note 7)              1,177,585         (109,288)
Total Net Position                                    32,369,234       42,214,295

Total Liabilities and Net Position                $   33,548,454   $   43,054,347




                                                                                     15
                        INTER-AMERICAN FOUNDATION 

                                Statement of Net Cost 

                  For the Years ended September 30, 2002 and 2001 



                                                  2002              2001
Program Costs
 Intragovernmental Gross Costs          $    1,560,926    $    1,566,717
 Less: Intragovernmental Earned Revenue               -                 -
 Intragovernmental Net Costs                 1,560,926         1,566,717

Gross Costs With the Public                 21,496,592        19,659,484 

Less: Earned Revenues From the Public                 -                 ­
Net Costs With the Public                   21,496,592        19,659,484 

 Total Net Cost                             23,057,518        21,226,201 



Net Cost of Operations (Note 8)         $   23,057,518    $   21,226,201 





                                                                             16
                                                        INTER-AMERICAN FOUNDATION 


                                                        Statement of Changes in Net Position


                                                 For the Years ended September 30, 2002 and 2001 





                                                                          2002                                            2001
                                                           Cumulative                                     Cumulative
                                                             Results              Unexpended                Results               Unexpended
                                                          of Operations          Appropriations          of Operations           Appropriations
Beginning Balances                                  $         (109,288)      $     42,323,583        $         (46,107)     $       47,899,727
Prior Period Adjustments (Note 9)                                    ­                        ­                       ­              3,431,977
Beginning Balances, as Adjusted                               (109,288)            42,323,583                  (46,107)             51,331,704

Budgetary Financing Sources:
                 Appropriations Received                                            13,110,674                                       12,000,000
                  Other Adjustments (Rescissions,
                  etc.)                                                              (1,469,112)                                       (26,400)
                  Appropriations Used                      22,773,496               (22,773,496)           20,981,721              (20,981,721)

Other Financing Sources:
                  Imputed Financing from Costs
                  Absorbed by Others                          189,895                                         181,299
                  Other (Note 10)                           1,381,000                                           ­                        -
Total Financing Sources                                    24,344,391               (11,131,934)           21,163,020               (9,008,121)

Net Cost of Operations                                     23,057,518                                      21,226,201

Ending Balances                                     $       1,177,585        $      31,191,649       $       (109,288)      $       42,323,583




                                                                                                                                   17 

                                            Statement of Budgetary Resources
                                    For the Years ended September 30, 2002 and 2001


                                                                                 2002                2001
BUDGETARY RESOURCES:
Budget Authority
Appropriations Received                                                   $           13,106,950 $    12,000,000

Unobligated Balance
Beginning of Period                                                                    9,749,523      16,101,027

Spending Authority from Offsetting Collections
Earned
 Collected                                                                             1,384,724             35,000
 Receivable from Federal Sources                                                               ­            (47,515)

Subtotal                                                                              24,241,197      28,088,512

Recoveries of Prior-Year Obligations
Actual                                                                                 2,752,149        5,818,890
Permanently Not Available
Cancellations of Expired and No-Year Accounts                                         (1,464,112)                ­
Pursuant to Public Law                                                                    (5,000)           (26,400)

Total Budgetary Resources                                                 $           25,524,234 $    33,881,002

STATUS OF BUDGETARY RESOURCES:
Obligations Incurred
Direct
 Category B                                                               $           21,867,409 $    24,131,480

Subtotal                                                                              21,867,409      24,131,480

Unobligated Balance
Apportioned
Balance, Currently Available                                                           2,090,491        7,591,869

Unobligated Balances Not Yet Available
Apportioned for Subsequent Periods
Other                                                                                  1,566,334        2,157,653



                                                                                                            18 

Total Status of Budgetary Resources           $   25,524,234 $   33,881,002

RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
Obligated Balance, Net, Beginning of Period       29,895,383     29,206,721


Obligated Balance, Net, End of Period
Undelivered Orders                                (24,106,399)   (29,291,342)
Accounts Payable                                     (953,344)      (604,041)

Outlays
Disbursements                                     23,950,900     17,679,315
Collections                                       (1,384,724)        (42,872)

Subtotal                                          22,566,176     17,636,443

Less: Offsetting Receipts                                  ­               ­

Net Outlays                                   $   22,566,176 $   17,636,443




                                                                    19 

                                      Inter-American Foundation
                                         Statement of Financing

                             For the Years ended September 30, 2002 and 2001 


                                                                                 2002                         2001

Resources Used to Finance Activities
Obligations Incurred                                                     $       21,867,409          $ 24,131,480
         Less: Spending Authority from Offsetting Collections and Recoveries     (4,136,873)            (5,806,376)
         Obligations Net of Offsetting Collections and Recoveries                17,730,536             18,325,104
         Less: Offsetting Receipts                                                _______________________________
         Net Obligations                                                         17,730,536             18,325,104

Other Resources
         Imputed Financing from Costs Absorbed by Others                            189,895               181,299
         Other Resources (Note 10)                                                1,381,000                  ------­
         Net Other Resources Used To Finance Activities                           1,570,895               181,299
                                                                                ________________________________
Total Resources Used to Finance Activities                                       19,301,431             18,506,403

Resources Used to Finance Items Not Part of the Net Cost of Operations

Change in Budgetary Resources Obligated for Goods, and Services and

        Benefits Ordered But Not Yet Provided                                    3,662,136              2,656,616
                                                                                _______________________________ _
Total Resources Used to Finance Items Not Part of the Net Cost of Operations     3,662,136              2,656,616
                                                                                _________________________________
Total Resources Used to Finance the Net Cost of Operations                      22,963,567             21,163,019

Components of the Net Cost of Operations That Will Not Require or
       Generate Resources in the Current Period

Components Requiring or Generating Resources in Future Periods

         Increase in Annual Leave Liabilities                                       31,866                   9,296
         Total Components of Net Cost Operations That Will Require or
          Generate Resources in Future Periods                                      31,866                   9,296
        Components Not Requiring or Generating Resources
                    Depreciation and Amortization                                   41,179                 47,560
                    Other                                                           20,906                  6,325
        Total Components of Net Cost of Operations That Will not Require or
          Generate Resources                                                        62,085                53,885
                                                                                 ______________________ _______
        Total Components of Net Cost of Operations That Will Not Require or

                          Generate Resources in the Current Period                  93,951                 63,181

                                                                               _________________________________
                    Net Cost of Operations                                      $ 23,057,518        $ 21,226,200

                                                                                                               20
Note 1.      Summary of Significant Accounting Policies

A.        Reporting Entity

The Inter-American Foundation (The Foundation), a U.S. government corporation, was
established pursuant to part IV of the Foreign Assistance Act of 1969 (22 U.S.C. 290f (a)). The
Foundation provides grants to help non-governmental and community-based organizations in
Latin America and the Caribbean implement their own ideas for development and poverty
reduction.

The management of the Foundation is vested in a nine-person Board of Directors appointed by
the President of the United States. Six Board members are drawn from the private sector and
three from among officers or employees of agencies of the U.S. Government concerned with
inter-American activities. As of December 16, 2002, three private sector positions on the Board
were filled. The Board appoints the Foundation’s president who acts as the chief executive
officer.

B.     Basis of Presentation

These financial statements are provided to meet the requirements of the Government
Management and Reform Act (GMRA) of 1994. The statements consist of the Balance Sheet,
Statement of Net Cost, Statement of Changes in Net Position, Statement of Budgetary Resources
and Statement of Financing.

These financial statements have been prepared to report the financial position and results of
operation of The Foundation. These statements were prepared from the books and records of
The Foundation in conformity with accounting principles generally accepted in the United
States, and the Office of Management and Budget (OMB) Bulletin No. 01-09, Form and Content
of Agency Financial Statements.

The Statement of Net Cost, Statement of Changes in Net Position, Statement of Budgetary
Resources, and the Statement of Financing for Fiscal Year 2001 have been restated to comply
with OMB 01-09 disclosure requirements.

C.        Basis of Accounting

Transactions are recorded on an accrual accounting basis and a budgetary basis. Under the
accrual method, revenues are recognized when earned and expenses are recognized when
liabilities are incurred, without regard to receipt or payment of cash. Budgetary accounting
facilitates compliance with legal constraints and controls over use of Federal funds.


                                                                                        21
To assist OMB in recommending and publishing comprehensive accounting standards and
principles for agencies of the Federal Government, the Secretary of the Treasury, the
Comptroller of the United States, the Director of OMB, and the Joint Financial Management
Improvement Program (JFMIP) established the Federal Accounting Standards Advisory Board
(FASAB) in 1990. The American Institute of Certified Public Accountants (AICPA) Council
designated FASAB as the accounting standards authority for Federal government entities.

D.     Funding Sources

The Foundation’s grant program is funded by (1) appropriation from the budget of the United
States, (2) agreement with the Inter-American Development Bank covering the Social Progress
Trust Fund (SPTF), and (3) donations from the private sector. No-year appropriations remain
available until expended, while multi-year appropriations are available for the period prescribed
by the applicable statute. Appropriations are used, within statutory limits, for programmatic,
operating and capital expenditures for essential personal property. Appropriations are
recognized as revenues at the time the related program or administrative expense are incurred.
Appropriations expended for capitalized property and equipment are recognized as expenses
when an asset is consumed in operations.

The Foundation has an agreement with the Inter-American Development Bank (IDB) to receive
funds from the SPTF to finance part of the Foundations grant program. The IDB is an
international financial organization established to promote the economic and social development
of member countries. The United States’ participation in IDB is authorized and governed by the
Inter-American Development Bank Act (22 U.S.C. 283). Within the Bank, the United States
established the SPTF in 1961 and provided appropriations to SPTF through 1964. The Bank was
designated as the administrator for the SPTF and committed the original SPTF appropriations to
loans. Repayments of these loans are recycled by the IDB in accordance with the original
agreement and subsequent provision for additional loans, technical cooperation programs, and
financing of the Inter-American Foundation program.

Pursuant to a 1973 amendment to the Foreign Assistance Act of 1961, the Bank provides funds
to finance social development projects. These funds are made available in U.S. dollars upon
request by the Foundation, subject to denomination availability and exchange controls. In 2002,
the STPF agreement was amended to make available all remaining funds until exhausted.

E.    Fund Balance with Treasury

Funds with the Department of the Treasury primarily represent appropriated funds that are
available to pay current liabilities and finance authorized purchase commitments. See Note 2 for
additional information.


                                                                                          22
F.    Accounts Receivable
Intra-governmental accounts receivable represent amounts due from other governmental
agencies. Non-governmental accounts receivable represent amounts due from non-federal
entities.

G.     Advances and Prepayments

Payments in advance of receipt of goods and services are recorded as prepaid charges at the time
of the prepayment and recognized as expenditures/expenses when the related goods or services
are received. See Note 4 for additional information.
H.     General Property, Plant, and Equipment, Net
The Foundation’s property, plant and equipment is recorded at cost and is depreciated using the
straight-line method over the estimated useful life of the asset. Major alterations and renovations
are capitalized, while maintenance and repair costs are charged to expense as incurred. The
Foundation’s capitalization threshold is $50,000 for individual purchases and $500,000 for bulk
purchases. Service lives are shown below. See Note 3 for additional information.

Description                           Life
ADP Equipment                         3
Office Furniture and Equipment        10

I.     Liabilities

Liabilities represent the amount of monies or other resources likely to be paid by The Foundation
as a result of transactions or events that have already occurred. No liability can be paid,
however, absent an appropriation or SPTF funding. Liabilities for which an appropriation has not
been enacted or SPTF funds received are, therefore, classified as not covered by budgetary
resources, and there is no certainty that the appropriation will be enacted. Also, the Government,
acting in its sovereign capacity, can abrogate liabilities.

J.     Accounts Payable
Accounts payable consists of amounts owed to other federal agencies and trade accounts
payable.
K.     Annual, Sick, and Other Leave
Annual leave is accrued as it is earned, and the accrual is reduced as leave is taken. Each year,
the balance in the accrued leave account is adjusted to reflect current pay rates. To the extent
current or prior year appropriations are not available to fund annual leave earned but not taken,

                                                                                            23
funding will be obtained from future financing sources. Sick leave and other types of nonvested
leave are expensed as taken.

L.     Retirement Plans

The Foundation’s employees participate in the Civil Service Retirement System (CSRS) or the
Federal Employees’ Retirement System (FERS). FERS was established by the enactment of
Public Law 99-335. Pursuant to this law, FERS and Social Security automatically cover most
employees hired after December 31, 1983. Employees hired before January 1, 1984 elected to
join either FERS and Social Security or remain in CSRS.

All employees are eligible to contribute to the Thrift Savings Plan (TSP). For those employees
participating in the FERS, a TSP account is automatically established and The Foundation makes
a mandatory 1 percent contribution to this account. In addition, The Foundation makes matching
contributions, ranging from 1 to 4 percent, for FERS eligible employees who contribute to their
TSP accounts. In accordance with Federal employee benefit policies, matching contributions are
not made to the TSP accounts established by CSRS employees.

FERS employees and certain CSRS reinstatement employees are eligible to participate in the
Social Security program after retirement. In these instances, The Foundation remits the
employer’s share of the required contribution. The Foundation's contribution to employee
pension plan were $380,851 for Fiscal Year 2002 and $325,058 for Fiscal Year 2001. In
addition, The Foundation costs for health and life insurance were $256,063 for Fiscal Year 2002,
and $224,599 for Fiscal Year 2001.

The Foundation does not report on its financial statements information pertaining to the
retirement plans covering its employees. Reporting amounts such as plan assets, accumulated
plan benefits, and related unfunded liabilities, if any, is the responsibility of the Office of
Personnel Management.
M.     Grant Disbursements and Administrative Expenses
Grant disbursements include payments in advance of performance under contractual obligations.
Evidence of performance is determined by review of periodic expenditure reports. All
Foundation expenditures for grants over $35,000 are independently verified using the
Foundation’s audit guidelines. The Foundation’s administrative expenses are funded solely by
appropriated funds.
N.     Imputed Costs/Financing Sources
Federal Government entities often receive goods and services from other Federal Government
entities without reimbursing the providing entity for all the related costs. In addition, Federal
Government entities also incur costs that are paid in total or in part by other entities. An imputed
                                                                                             24
financing source is recognized by the receiving entity for costs that are paid by other entities.
The Foundation recognized imputed costs and financing sources in fiscal years 2002 and 2001 to
the extent directed by the OMB.

O.        Non-Entity Assets and Liabilities

The Foundation did not hold any Non-Entity assets or liabilities as of September 30, 2002 and
2001.

Note 2.      Funds with U.S. Treasury

Entity fund balance includes balances that are available to pay liabilities and to finance
authorized purchase and grant commitments. The Foundation maintains all funds with the
United States Treasury.

                                                  2002         2001
Appropriated Fund                             $ 15,984,802 $ 16,120,818
Gift Fund                                          173,503      175,660
Social Progress Trust Fund (SPTF)               12,558,262   23,348,428
    Total Entity Funds                        $ 28,716,567 $ 39,644,906



Status of Fund Balance with Treasury
                                                FY 2002        FY 2001
                                              (In Dollars)   (In Dollars)
Unobligated Balance
   Available                                  $  2,090,491 $ 7,591,869
   Unavailable                                   1,566,333    2,157,653
Obligated Balance not yet Disbursed             25,059,743   29,895,384
Total                                         $ 28,716,567 $ 39,644,906


Note 3.          Advances and Prepayments

Grant payments are recorded as an advance and amortized over the estimated useful period
covered by the agreement. First time grant payments are amortized over an eight-month period.
Subsequent payments are amortized over a six-month period. Prepayments are also made to
select government agencies and vendors in advance of receiving the goods or service. Advances

                                                                                          25
are also permitted for employee travel, although none were outstanding at the end of either 2002
or 2001. Advances and prepayments are detailed on the following page:

                                                      2002                 2001
          Prepayments to Government Agencies     $    98,036          $   412,749
          Grant Advances                           4,711,213            2,834,692
            Total Advances and Prepayments       $ 4,809,249          $ 3,247,441


Note 4.        Property, Plant and Equipment

The balance of Property, Plant, and Equipment is as follows:

September 30, 2002
                        Depreciation     Service Acquisition Accumulated  Net Book
    Description            Method          Life     Cost     Depreciation  Value
ADP Equipment           Straight Line    3 years $ 127,893 $     127,893 $         -
Office Furniture        Straight Line    10 years   108,012        86,458    21,554
 Total                                            $ 235,905 $    214,351 $ 21,554



September 30, 2001
                        Depreciation     Service Acquisition Accumulated             Net Book
    Description            Method          Life     Cost     Depreciation             Value
ADP Equipment           Straight Line    3 years $ 171,380 $     145,699            $ 25,681
Office Furniture        Straight Line    10 years   274,820      215,779                59,041
 Total                                            $ 446,200 $    361,478            $ 84,722

Note 5.        Liabilities

The accrued liabilities for The Foundation are comprised of program expense accruals, payroll
accruals, and unfunded annual leave earned by employees. Program expense accruals represent
expenses that were incurred prior to year-end but were not paid. Similarly, payroll accruals
represent payroll expenses that were incurred prior to year-end but were not paid.




                                                                                          26
Note 5.        Liabilities (continued)

Liabilities Covered by Budgetary Reserves
       Intragovernmental
              Program expenses                             $      2,016       $         -
              Payroll Taxes Payable                              47,896           164,336
       Total Intragovernmental                                   49,912           164,336

            Program Expenses                                    705,268           327,187
            Payroll Accrual                                     197,986           154,518
            Payroll Taxes Payable                                   177                 ­
      Total Liabilities Covered by Budgetary Resources          953,343           646,041

Liabilities Not Covered by Budgetary Resources
              Unfunded Leave                                    225,877           194,011

Total Liabilities                                          $ 1,179,220        $ 840,052


Note 6.        Commitments and Contingencies

In the course of its grant-making activities, The Foundation has unliquidated grant obligations
which, in the absence of violations or cancellations of the grant agreements, will require
disbursements. Unliquidated grant obligations at September 30, 2002 and 2001 total
approximately $22,900,000 and $29,100,000, respectively.

As of September 30, 2002 and 2001, there were no obligations due to canceled appropriations for
which there is a contractual commitment for payment.

Note 7.        Net Position

The Inter-American Foundation’s net position is composed of unexpended appropriations and
the cumulative results of operations. Net position as of September 30, 2002 and 2001 consisted
of the following:




                                                                                            27
Note 7.        Net position (continued)

                                                  2002          2001
Unobligated
     Available                                 $ 2,090,491 $ 7,658,296
     Unavailable                                  1,566,333   2,091,227
Undelivered Orders                              28,915,648   32,574,060
Non-appropriated Funds                           (1,380,823)          ­
Total Unexpended Appropriations                 31,191,649   42,323,583

Cumulative Results of Operations                  1,177,585     (109,288)

Net Position                                   $ 32,369,234 $ 42,214,295


The category Undelivered Orders consists of the following:
                                                   2002        2001
Unexpended Obligations - Unpaid               $ 24,106,399 $ 29,291,342
Unexpended Obligations - Prepaid                  4,809,249   3,247,440
Other                                                      -     35,278
     Total Undelivered Orders                 $ 28,915,648 $ 32,574,060


Note 8.        Program Costs

Expenses are detailed on the following page.




                                                                            28
    Note 8.        Program Costs (continued)

                                                                        FY 2002          FY 2001
Personnel compensation                                              $ 2,962,475      $ 2,597,544
Personnel benefits other than pension, health, and life insurance       275,079           230,406
Pension -- CSRS                                                         152,119           149,164
Pension -- FERS                                                         228,731           175,894
Health insurance                                                        250,617           219,744
Life insurance                                                            5,446             4,855
Benefits to former employees                                                536             9,112
Travel and transportation of persons                                    313,067           278,785
Transportation of things                                                 19,043             9,781
Rents, communication, utilities and misc. charges                       560,958           571,576
Printing and reproduction                                               156,781            23,879
Other services                                                        2,145,248         2,094,719
Supplies and materials                                                   33,277            25,176
Equipment                                                                63,438            73,956
Grants, subsidies, and contributions                                 15,859,703        14,726,610
Insurance claims and indemnities                                         31,000            35,000

Total                                                               $23,057,518        $21,226,201

    Note 9.        Prior Period Adjustments

    Prior Period Adjustments were recorded in fiscal year 2001 for several items that were not
    properly recorded in prior fiscal years. A prepayment to a government agency was improperly
    expensed in fiscal year 2000 in the amount of $1,482,111. Grant Advances in the amount of
    $4,809,383 were also expensed in fiscal year 2000 rather than being recorded as an advance.
    Accounts receivable of $2,016,000, which had been improperly recorded, was also reversed. An
    extensive review of all of the asset and liability accounts was performed during 2001, which
    resulted in other adjustments totaling $843,517. The net prior period adjustment totaled
    $3,431,977. Assets were increased by $3,602,722 and liabilities increased by $170,745.

    Note 10.       Financing Sources - SPTF

    The Statement of Financing reconciles the Financial Net Cost of Operations with obligation of
    budget authority. The Foundation’s Statement of Budgetary Resources is based on its SF-133 in
    which the Foundation reports SPTF funds obtained from the IDB as offsetting collections earned.
                                                                                             29
The Foundation had no exchange revenue in fiscal year 2001 or 2002. For fiscal year 2002, the
foundation received $1,381,000 from the IDB, which was reported in its SF-133 as funds
received from offsetting collections. The Foundation did not receive any funds in fiscal year
2001.

Note 11.     Explanation of Differences Between the Statement of Budgetary Resources
and the Budget of the United States Government

The 2004 Budget of the United States Government, with the Actual Column completed for fiscal
year 2002, has not yet been published as of the date of these financial statements. The Budget is
currently expected to be published and delivered to Congress in early February 2003. The 2003
Budget of the United States Government, with the Actual Column completed for fiscal year
2001, has been reconciled. There were three differences noted. Prior period adjustments of
$4,914,079 and prior year recoveries of $5,524,612 were reported on the Statement of Budgetary
Resources but not on the President’s Budget because they had not been identified when the
President’s Budget was completed. Additionally, there was a difference of $1,694,467 in
unobligated balance brought forward for expired funds. This amount was correctly not reported
on the President’s Budget due to expiration.

Note 12.      Operating Lease

The Foundation occupies office space under a lease agreement, which is accounted for as an
operating lease. The former lease expired on March 31, 2002 and was renewed for 10 years,
expiring March 31, 2012. Lease payments are increased annually based on the Foundation’s
proportionate share of the building’s operating expenses and real estate taxes. The new
agreement allows The Foundation an abatement credit in lieu of a build-out allowance that will
be deducted from the monthly rent for the first 26 months of the lease. Total net rental expense
was $431,893 for fiscal year 2002 and $448,017 for fiscal year 2001. Future minimum lease
payments for office space as of September 30, 2002 are detailed below:

               Schedule of Future Operating Lease Payments

                                              Amount
               FY 2003                      $    409,045
               FY 2004                           453,666
               FY 2005                           561,157
               FY 2006                           575,186
               FY 2007                           589,566
               After Five Years                2,894,481

               Total Future Payments        $   5,483,101
                                                                                          30
Independent Auditor's Report on Internal Control


Office of the Inspector General
U.S. Agency for International Development
Washington, D.C.


We have audited the financial statements of the Inter-American Foundation (IAF), a U.S.
Government Corporation, as of, and for the years ended September 30, 2002 and 2001, and have
issued our report thereon dated January 3, 2003. We conducted our audit in accordance with
auditing standards generally accepted in the United States of America; the standards applicable
to financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States; and, Office of Management and Budget (OMB) Bulletin No. 01-02,
Audit Requirements for Federal Financial Statements.

In planning and performing our audit, we considered the IAF’s internal control over financial
reporting by obtaining an understanding of the IAF’s internal control, determined whether
internal controls had been placed in operation, assessed control risk, and performed tests of
controls in order to determine our auditing procedures for the purpose of expressing our opinion
on the financial statements. We limited our internal control testing to those controls necessary to
achieve the objectives described in OMB Bulletin No. 01-02. We did not test all internal controls
relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity
Act of 1982, such as those controls relevant to ensuring efficient operations. The objective of our
audit was not to provide assurance on internal control. Consequently, we do not provide an
opinion on internal control.

Our consideration of the internal control over financial reporting would not necessarily disclose
all matters in the internal control over financial reporting that might be reportable conditions.
Under standards issued by the American Institute of Certified Public Accountants, reportable
conditions are matters coming to our attention relating to significant deficiencies in the design or
operation of the internal control that, in our judgment, could adversely affect the IAF’s ability to
record, process, summarize, and report financial data consistent with the assertions by
management in the financial statements. Material weaknesses are reportable conditions in which
the design or operation of one or more of the internal control components does not reduce to a
relatively low level the risk that misstatements in amounts that would be material in relation to
the financial statements being audited may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions. Because of inherent
limitations internal controls, misstatements, losses, or noncompliance may nevertheless occur
and not be detected.


                                                                                             31
However, we noted no matters involving the internal control and its operation that we consider to
be material weaknesses as defined above.

In addition, with respect to internal controls related to performance measures reported in the
Management’s Discussion and Analysis (MD&A), we obtained an understanding of the design
of significant internal controls relating to the existence and completeness assertions, as required
by OMB Bulletin No. 01-02. Our procedures were not designed to provide assurance on internal
control over reported performance measures, and, accordingly, we do not provide an opinion on
such controls.

This report is intended solely for the information and use of the management of the Inter-
American Foundation (IAF), the Office of the Inspector General (OIG) of the U.S. Agency for
International Development, the Office of Management and Budget (OMB), and Congress, and is
not intended to be and should not be used by anyone other than these specified parties.


/s/

Gardiner, Kamya & Associates

January 3, 2003




                                                                                            32
         Independent Auditor's Report on Compliance with Laws and Regulations


Office of the Inspector General
U.S. Agency for International Development
Washington, D.C.


We have audited the financial statements of the Inter-American Foundation (IAF), a U.S.
Government Corporation, as of, and for the years ended September 30, 2002 and 2001, and have
issued our report thereon dated January 3, 2003. We conducted our audit in accordance with
auditing standards generally accepted in the United States of America; the standards applicable
to financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States; and, Office of Management and Budget (OMB) Bulletin No. 01-02,
Audit Requirements for Federal Financial Statements.

The management of the IAF is responsible for complying with laws and regulations applicable to
the agency. As part of obtaining reasonable assurance about whether the financial statements are
free of material misstatement, we performed tests of the IAF’s compliance with certain
provisions of laws and regulations, noncompliance with which could have a direct and material
effect on the determination of financial statement amounts, and certain other laws and
regulations specified in OMB Bulletin No. 01-02, including the requirements referred to in the
Federal Financial Management Improvement Act (FFMIA) of 1996. We limited our tests of
compliance to these provisions and we did not test compliance with all laws and regulations
applicable to the IAF.

The results of our tests of compliance with laws and regulations described in the preceding
paragraph exclusive of FFMIA disclosed no instances of noncompliance that are required to be
reported under Government Auditing Standards and OMB Bulletin No. 01-02.

Under FFMIA, we are required to report on whether the IAF’s financial management systems
substantially comply with the Federal financial management systems requirements (FFMSR),
applicable Federal accounting standards, and the United States Standard General Ledger at the
transaction level. The Administrative Resource Center of the Franchise Fund, Bureau of Public
Debt, performs the accounting and reporting functions for the IAF. We are not the auditors of the
Franchise Fund and did not perform tests of compliance with the FFMSR using the
implementation guidance included in Appendix D of OMB Bulletin No. 01-02. Those tests were
performed by other auditors whose report has been furnished to us. Our report, insofar as it
relates to FFMSR compliance, is based solely on the report of the other auditors.

The report of the other auditors on the substantial compliance of the IAF with the requirements
of FFMSR disclosed no instances of substantial non-compliance with the FFMSR. Our audit
                                                                                          33
tests disclosed no instances in which IAF did not substantially comply with Federal accounting
standards and the U.S. Standard General Ledger requirements.

Providing an opinion on compliance with certain provisions of laws and regulations was not an
objective of our audit and, accordingly, we do not express such an opinion.

This report is intended solely for the information and use of the management of the Inter-
American Foundation (IAF), the Office of the Inspector General (OIG) of the U.S. Agency for
International Development, the Office of Management and Budget (OMB), and Congress, and is
not intended to be and should not be used by anyone other than these specified parties.


/s/

Gardiner, Kamya & Associates

January 3, 2003




                                                                                       34
    INTER-AMERICAN 

      FOUNDATION 





    MANAGEMENT LETTER 

      FISCAL YEAR 2002 



STATUS OF PRIOR YEAR FINDINGS





                                 35
       Office of the Inspector General
       U.S. Agency for International Development 

       Washington, D.C. 


We have audited the Principal Statements (balance sheet and the related statements of net cost,
changes in net position, budgetary resources and financing, hereinafter referred to as “financial
statements”) of the Inter-American Foundation (IAF) as of and for the years ended September
30, 2002 and 2001, and have issued an unqualified opinion thereon dated January 3, 2003. In
planning and performing our audits of the financial statements of the IAF, we considered its
internal control in order to determine our auditing procedures for the purpose of expressing our
opinion on the financial statements and not to provide assurance on the internal control. We have
not considered the internal control since the date of our report.

During our FY 2002 audit, we noted no matters involving the internal control and other
operational matters. During our FY 2001 audit, we noted certain matters involving the internal
control and other operational matters that were presented in our FY 2001 Management Letter for
your consideration. For FY 2002, we performed follow up work on these issues and considered
them to be satisfactorily resolved. For your convenience, a detail description of the issues and
their resolutions are disclosed in the Status of Prior Year Findings attached.

Our audit procedures are designed primarily to enable us to form an opinion on the financial
statements, and therefore may not bring to light all weaknesses in policies or procedures that may
exist. Our aim, however, is to use our knowledge of the IAF gained during our audits to provide
comments and suggestions we hope will be useful to you. We realize that due to the complex
nature of many of the issues and the lead time required to correct the situations noted, it is not
practical to implement most of our recommendations at one time or in a short period of time.

We appreciate the cooperation and courtesies extended to us.

This report is intended for the information and use of the management of Inter-American
Foundation (IAF), the Office of the Inspector General (OIG) of the Agency for International
Development, Office of Management and Budget (OMB), and Congress, and is not intended to
be and should not be used by anyone other than these specified parties.


January 3, 2003

/s/

Gardiner, Kamya & Associates

                                                                                           36
Management Letter Comments (Status of Prior Year Findings):

During our FY 2001 audit, we noted the following:

                                      CONDITION No. 1

The agency that processes the payroll for the Inter-American Foundation does not generate a
payroll register that is easily retrievable by IAF.

During our audit of the salaries and benefits expense, we noted that a payroll register for each
pay period is not generated by the processing agency nor is it available for review by the IAF.
Instead, individual records are kept for each employee for each pay period. As a result, a record
of all the employees who were paid for each pay period that shows earnings, deductions,
government contributions and net pay is not easily available for review by management. To
facilitate such a review, the processing agency must print a record for employees who were paid
for that pay period and additional effort is required to summarize them.

RECOMMENDATION

We recommend that IAF request the processing agency to produce a Payroll Register for each
pay period because it makes it easier to review and evaluate the validity and reasonableness of
the payroll and benefit expenses.

FY 2002 FOLLOW UP STATUS OF THIS PRIOR YEAR FINDING:

IAF received a cost quotation from DOI in order for a detail payroll register that includes other
payroll deductions to be produced. IAF management has only experienced a need for this on an
occasional case-by-case basis. DOI can provide answers as needed for these occasional requests,
and IAF management believes that this is sufficient information.

Conclusion:

We accept management's explanation and consider the issue close. 


CONDITION No. 2

The Payroll Costs Distribution Data downloaded from the Department of Interior National
Business Center (NBC) is not in the format that can be posted to the general ledger.

During our audit, we noted that the payroll costs distribution data available from NBC is not in a
format that can be entered directly into the general ledger. As a result, IAF personnel has to
manipulate the data and then reconcile to the NBC’s summary totals before payroll costs
                                                                                           37
distribution information is sent to Bureau of Public Debt, Administrative Resource Center for
posting to the general ledger.

RECOMMENDATION

We recommend that the payroll costs distribution data available from the Department of Interior
National Business Center (NBC) should be in a format that can be entered directly to the general
ledger.

FY 2002 FOLLOW UP STATUS OF THIS PRIOR YEAR FINDING:

We noted that the biweekly labor cost distribution file is now transferable from DOI to both IAF 

and BPD simultaneously.


Conclusion:

This issue is considered satisfactorily resolved. 


CONDITION No. 3

A monthly internal control checklist was not adopted as part of IAF’s internal control policy to
monitor its accounting and reporting services provider.
During our review of findings and recommendations that were reported in prior years we noted
that IAF did not adopt an internal control checklist as part of its internal control policy to
monitor its accounting and reporting services provider. IAF had agreed to implement this
procedure as part of its corrective action plan to comply with recommendations made by the
Office of the Inspector General.

RECOMMENDATION

We recommend that IAF develop and implement a checklist to be used by management to
document its monitoring, reviewing and evaluating activities.

FY 2002 FOLLOWS UP STATUS OF THIS PRIOR YEAR FINDINGS:

Our FY 2002 follow up work revealed that IAF personnel are completing an Internal Control 

Checklist on a monthly basis. 


Conclusion:

IAF has implemented our recommendation and the issue is considered satisfactorily resolved.




                                                                                          38
